                  U.S. Department of Agriculture

                      Office of Inspector General
                                 Northeast Region




      Audit Report

Foreign Agricultural Service
Trade Promotion Operations




                        Report No. 07601-1-Hy
                                February 2007
                 UNITED STATES DEPARTMENT OF AGRICULTURE
                                   OFFICE OF INSPECTOR GENERAL

                                        Washington D.C. 20250


February 22, 2007

REPLY TO
ATTN OF:       07601-01-Hy


TO:            Michael W. Yost
               Administrator
               Foreign Agricultural Service

ATTN:          James Gartner
               Acting Director
               Compliance, Security and Emergency Planning Division

FROM:          Robert W. Young /s/
               Assistant Inspector General
                 for Audit

SUBJECT:       Trade Promotion Operations


This report presents the results of our audit of the Foreign Agricultural Service’s Trade
Promotion Operations. Your response to the official draft, dated February 9, 2007, is
included as exhibit A. Excerpts of your response and the Office of Inspector General’s
(OIG) position are incorporated into the Findings and Recommendations section of the
report. Based on your response, we were able to reach management decision on
Recommendations 1 and 3. Please follow your agency’s internal procedures in
forwarding documentation for final action to the Office of the Chief Financial Officer.

We have not reached management decision on Recommendations 2, 4, and 5. The
information needed to reach management decision on these recommendations are set
forth in the OIG Position section after each recommendation. In accordance with
Departmental Regulation 1720-1, please furnish a reply within 60 days describing the
planned corrective actions and the timeframes for implementing them for
Recommendations 2, 4, and 5. Please note that the regulation requires management
decision to be reached on all findings and recommendations within 6 months from
report issuance.

We appreciate the courtesies and cooperation extended to us by members of your staff
during this audit.
Executive Summary
Foreign Agricultural Service Trade Promotion Operations
(Audit Report No. 07601-1-Hy)

Results in Brief                 In response to a request from three Members of Congress, we reviewed the
                                 extent to which the U.S. Department of Agriculture (USDA), through the
                                 Foreign Agricultural Service’s (FAS) market development programs, 1 fosters
                                 expanded trade activities in the exporting of U.S. agricultural products.
                                 Specifically, we evaluated information to answer questions on how FAS
                                 collects and disseminates information to interested U.S. organizations and how
                                 the agency works with the U.S. Trade Representative (USTR) to secure relief
                                 from trade barriers. We also answered questions on the link, if any, between
                                 USDA accomplishments for promoting exports with the National Export
                                 Strategy (NES) and assessments of the effectiveness of the Market Access
                                 Program (MAP) in the Philippines.

                                 Similar requests were made of other Offices of Inspectors General (OIG), such
                                 as the U.S. Agency for International Development (USAID), to review their
                                 respective trade promotion operations. The Members of Congress requested
                                 that we work with the Senior Trade Advisor with the Committee on Small
                                 Business, U.S. House of Representatives, to establish the scope and timing of
                                 our review. The Senior Trade Advisor requested that we provide the results of
                                 our review by November 2006. Accordingly, we limited the scope of our work
                                 due to the constraints on the amount of time to perform audit tests and certain
                                 information that was not available for our review (e.g., program evaluations
                                 for the Philippines). FAS officials stated that there were program evaluations
                                 completed of markets other than the Philippines. However, FAS was unable to
                                 provide these program evaluations that would assess MAP effectiveness
                                 following the evaluation criteria specified in the regulations. 2 We conducted
                                 interim briefings with both FAS officials and the Senior Trade Advisor to
                                 provide them timely information for their deliberation and use.

                                 In addition to the administration of market development programs, FAS
                                 carries out other activities to support the expansion of U.S. agricultural
                                 exports. These include collecting and disseminating market information;
                                 working with other agencies such as USTR to remove trade barriers; and
                                 participating in interagency activities on trade promotion. In addition,
                                 legislation and regulations require FAS to provide export information to
                                 domestic producers, the agricultural trade, and the public; and to promote
                                 commercial markets abroad. 3 FAS is to disseminate, upon request, information
                                 on subjects connected with agriculture that has been acquired by USDA

1
    There are a total of five FAS market development programs consisting of the Market Access Program (MAP), the Foreign Market Development
    (FMD) Program, the Emerging Markets Program, the Quality Samples Program, and the Technical Assistance for Specialty Crops program. We
    focused on MAP for this review because it was the largest of these programs in fiscal year (FY) 2005 and in FY 2006.
2
    Title 7, C.F.R. § 1485.20 (c) (3)
3
    Title 7, U.S.C., § 1761 and Title 7, C.F.R., Subtitle A, §2.43 (a) (3)

USDA/OIG-A/07601-1-Hy                                                                                                             Page i
                                      agencies that may be useful to the U.S. private sector in expanding foreign
                                      markets and investment opportunities. 4

                                        •     FAS carries out its trade promotion programs in partnership with
                                              agricultural trade associations, State Regional Trade Groups (SRTG), and
                                              State Departments of Agriculture. For example, SRTGs have resources to
                                              educate both new and experienced U.S. companies in exporting their
                                              products. These resources include online export guides assisting U.S.
                                              companies with the basics of exporting, as well as export help lines for
                                              companies to receive assistance unique to their products. FAS provides
                                              funding to these groups through MAP to assist U.S. companies in
                                              pursuing international sales and marketing efforts. For fiscal year
                                              (FY) 2005, FAS allocated $140 million in funding for MAP and
                                              $200 million in FY 2006. FAS recently reorganized its operations, in part,
                                              to realign functions and personnel to increase its effectiveness. One of the
                                              goals of the reorganization, which became effective in November 2006,
                                              was to provide program participants with better service that is streamlined
                                              and transparent. As part of our review, we identified additional areas for
                                              FAS to address as it takes action to strengthen the agency’s trade
                                              promotion programs.

                                        •     FAS does not formally track its efforts to expand trade activities in
                                              exporting U.S. agricultural products or outreach to U.S. exporters. As a
                                              result, there is no assurance that FAS’ outreach efforts are effective in
                                              expanding U.S. agricultural exports. FAS does, however, use a variety of
                                              resources to identify and disseminate information on trade constraints and
                                              business opportunities to interested U.S. organizations. These resources
                                              include information gathered by FAS staff in overseas field offices and
                                              data posted on the FAS website and Export.gov. In a strategic alliance,
                                              FAS also relies on SRTGs and other industry trade groups to identify
                                              trade constraints, obtain information on foreign agricultural business
                                              opportunities, and disseminate information on constraints and
                                              opportunities to interested U.S. organizations. Interested organizations are
                                              not always aware that the SRTGs are a primary source of market related
                                              information. According to the companies we contacted, which included
                                              small and medium-sized entities, they rely on their own sources, as
                                              opposed to FAS, to identify trade constraints and obtain information on
                                              foreign business opportunities.

                                        •     FAS does not present trade barriers 5 to USTR and then wait for USTR to
                                              secure relief from these barriers. Also, the agency does not have a
                                              mechanism for summarizing trade barrier information. FAS promotes the

4
    Title 7, C.F.R., Subtitle A, §2.43 (a) (38)
5
    According to FAS officials, FAS distinguishes trade barriers as a subset of trade constraints and generally deals with them differently. Constraints
    include such items as a lack of consumer awareness of the product or the lack of sufficient cold storage facilities in the country of import. Trade barriers
    are generally recognized as foreign government actions that inhibit trade, whether reasonable or unreasonable. Trade barriers that do not violate
    international trading rules are generally handled within the Department.

USDA/OIG-A/07601-1-Hy                                                                                                                                Page ii
                                              growth of U.S. agricultural products by maintaining a close working
                                              relationship with USTR. FAS officials across many organizational units
                                              maintain contact with USTR on a regular and recurring basis. According
                                              to FAS officials, this close working relationship has proven to be
                                              effective for resolving trade barriers, which can change rapidly.

                                          •   The 2006 NES submitted to Congress did not present USDA’s annual
                                              accomplishments for promoting the export of U.S. agricultural products
                                              or link information to the USDA’s Performance and Accountability
                                              Report (PAR). This occurred because the U.S. Department of
                                              Commerce’s Trade Promotion Coordinating Committee (TPCC), which is
                                              responsible for publishing the NES, did not require FAS to submit this
                                              type of information. As a result, USDA’s performance goals and
                                              measures regarding exports could not be linked with the goals of the
                                              TPCC.

                                         According to FAS regulations, a MAP participant shall conduct periodic
                                         evaluations of its program and activities, which contain, among other things, a
                                         description of additional sales achieved, to assess the effectiveness of the
                                         program. 6 According to FAS officials, participants may use third-party
                                         independent evaluations to fulfill the reporting requirements set forth in the
                                         regulations.

                                         We limited our review of MAP to one country to complement the review by
                                         USAID’s Inspector General of USAID’s trade capacity building activities. We
                                         chose to review the Philippines because the participants received the largest
                                         request for MAP funds in 2006 of the five countries in the USAID review.
                                         FAS provided over $1 million in MAP funding to all participants operating in
                                         the Philippines in FY 2005. Participants operating in the Philippines also
                                         requested more than $1.2 million in MAP funding in FY 2006. For a more
                                         detailed analysis, we selected the top three participants that received nearly
                                         78 percent of MAP funding in the Philippines in FY 2005. Overall MAP
                                         allocations totaled $140 million in FY 2005.

                                          •   We found that participants do not conduct program evaluations on a
                                              schedule. This occurred because FAS does not have a mechanism that
                                              ensures comprehensive, periodic program evaluations are conducted by
                                              participants to assess MAP effectiveness. In addition, FAS officials stated
                                              that third-party evaluations would be prohibitively expensive for
                                              participants that received limited MAP funds. FAS officials explained
                                              that these three participants contracted for independent evaluations in
                                              markets other than the Philippines on a regular basis. However, FAS was
                                              unable to provide these program evaluations that would assess MAP
                                              effectiveness. According to FAS officials, they use the participant’s
                                              application, country progress reports, attaché reviews, and discussions
6
    Title 7, C.F.R., § 1485.20 (c) (3)

USDA/OIG-A/07601-1-Hy                                                                                            Page iii
                          with FAS marketing specialists to assess participant performance. They
                          acknowledged that these assessments do not necessarily take the place of
                          independent evaluations. As of September 2006, these three participants
                          received over $780,000 in MAP funding during FY 2005 and requested
                          more than $609,000 for FY 2006 for use in the Philippines.

                      To strengthen FAS’ trade promotion programs, the agency needs to improve
                      efforts to outreach to U.S. agricultural interests and work with TPCC to link
                      USDA accomplishments with the NES. FAS also needs to ensure participants
                      conduct evaluations to assess MAP effectiveness.

Recommendations
In Brief        FAS should identify those areas where tracking and analyzing specific data
                would be useful to the agency’s efforts to expand exports of U.S. agricultural
                products, and based on this documented analysis, implement a formal system
                to track this information. FAS needs to ensure that organizations interested in
                exporting agricultural products are aware that FAS works through the industry
                trade groups to outreach to the organizations and provide information on
                foreign trade constraints and business opportunities. Also, FAS needs to work
                with TPCC to implement standard reporting requirements to provide a linkage
                between USDA’s annual accomplishments and the NES submitted to
                Congress. Finally, FAS needs to implement methodologies to ensure
                participants conduct periodic program evaluations to effectively measure their
                accomplishments with MAP funding.

Agency Response       FAS acknowledged the challenges and complexities faced by OIG in
                      completing this audit under difficult constraints. Despite these issues, FAS
                      generally concurred with the report recommendations; however, the agency
                      had some concerns with parts of the audit and its conclusions.

                      For example, FAS’ response stated that limiting the scope of the review of
                      MAP to program activities in the Philippines provided no credible basis for
                      drawing conclusions about the entire program. In addition, FAS provided
                      examples of evaluations of MAP participants for activities in countries other
                      than the Philippines and explained that MAP participants are not required to
                      conduct evaluations for every individual market in a given year.

                      We have incorporated excerpts from FAS’ response in the Findings and
                      Recommendations section of this report, along with the OIG position. FAS’
                      response is included as exhibit A.

OIG Position          As noted in this section and in the Scope and Methodology section of this
                      report, we limited our review of MAP to program operations in the
                      Philippines. We did not draw conclusions about the entire program. In
                      addition, we reported that FAS was unable to provide program evaluations that
                      assessed MAP effectiveness in the Philippines following criteria specified in

USDA/OIG-A/07601-1-Hy                                                                      Page iv
                  the regulations. We acknowledged that MAP participants are not required to
                  conduct evaluations for every individual market in a given year. We also
                  appreciated the examples of evaluations FAS officials provided for activities
                  of MAP participants in several countries other than the Philippines. However,
                  when providing these evaluations, an FAS official acknowledged that the
                  materials provided at the end of our review were “consumer or market
                  surveys” and that “these surveys do not strictly follow the evaluation criteria
                  laid out in the MAP and FMD regulations.”

                  Despite its concerns with the report, FAS generally concurred with the
                  recommendations. And based on FAS’ response, we accepted management
                  decision on two of the five recommendations in the report (Recommendations
                  1 and 3). The Findings and Recommendations section of this report provides
                  the details of the additional information needed to reach management decision
                  on Recommendations 2, 4, and 5.




USDA/OIG-A/07601-1-Hy                                                                     Page v
Abbreviations Used in This Report

C.F.R.              Code of Federal Regulations
FAS                 Foreign Agricultural Service
FMD                 Foreign Market Development
FY                  Fiscal Year
GAIN                Global Agricultural Information Network
GAO                 Government Accountability Office
GPRA                Government Performance and Results Act of 1993
MAP                 Market Access Program
NES                 National Export Strategy
OIG                 Office of Inspector General
OMB                 U.S. Office of Management and Budget
PAR                 Performance and Accountability Report
SRTG                State Regional Trade Group
TPCC                Trade Promotion Coordinating Committee
USAID               U.S. Agency for International Development
USDA                U.S. Department of Agriculture
USTR                U.S. Trade Representative




USDA/OIG-A/07601-1-Hy                                                Page vi
Table of Contents

Executive Summary .................................................................................................................................i

Abbreviations Used in This Report ......................................................................................................vi

Background and Objectives ................................................................................................................... 1

Findings and Recommendations............................................................................................................ 5

    Section 1. FAS Needs to Improve Tracking of Efforts to Expand Trade Activities and
                 Outreach to U.S. Exporters ....................................................................................... 5

        Finding 1 ....................................................... ................................................................................. 5
                                 Recommendation 1 .......................................................................................... 8
                                 Recommendation 2 .......................................................................................... 9

    Section 2. Linkage Between USDA Accomplishments and the National Export Strategy
                  Needed ....................................................................................................................... 11

        Finding 2………………………………………………………………… ................................... 11
                     Recommendation 3 ........................................................................................ 12

    Section 3. Program Evaluations to Assess MAP Effectiveness in the Philippines Not
                  Conducted by Participants or FAS......................................................................... 13

        Finding 3………………………………………………… ........................................................... 13
                     Recommendation 4 ........................................................................................ 15
                     Recommendation 5 ........................................................................................ 16

Scope and Methodology........................................................................................................................ 17

Exhibit A – Agency Response .............................................................................................................. 19




USDA/OIG-A/07601-1-Hy                                                                                                                           Page vii
Background and Objectives
Background         The Foreign Agricultural Service (FAS) of the U.S. Department of
                   Agriculture (USDA) works to improve foreign market access for U.S.
                   products, build new markets, and improve the competitive position of U.S.
                   agriculture in the global marketplace. The agency also provides food aid and
                   technical assistance to foreign countries. FAS has the primary responsibility
                   for USDA’s international activities, including the expansion of exports for
                   U.S. agricultural, fish, and forest products; support of international economic
                   development and trade capacity building; and efforts to improve the sanitary
                   and phytosanitary system to facilitate trade. FAS has a staff of nearly
                   1,100 employees stationed in Washington D.C., and in about 80 countries
                   around the world.

                   Export Promotion

                   FAS programs help U.S. exporters develop and maintain markets for
                   hundreds of food and agricultural products, from bulk commodities to brand
                   name items. The largest FAS promotional programs are the Market Access
                   Program (MAP) and Foreign Market Development program (FMD), which
                   were allocated $200 million and $34.5 million, respectively, for fiscal year
                   (FY) 2006. Promotional activities under these programs use funds from
                   USDA’s Commodity Credit Corporation. These programs are carried out in
                   partnerships with agricultural trade associations, State Regional Trade
                   Groups (SRTG), State Departments of Agriculture, small and medium-sized
                   businesses, and cooperatives that plan, manage, and contribute staff resources
                   and funds to support these efforts. As of November 2006, there were
                   approximately 75 participants, including 4 SRTGs participating in FAS’
                   promotional programs.

                   FAS uses a variety of resources to identify and disseminate information on
                   trade constraints and business opportunities to interested U.S. organizations.
                   These resources include information gathered by FAS staff in overseas field
                   offices and data posted on the FAS website and Export.gov. FAS also refers
                   U.S. exporters to industry trade groups, such as State Departments of
                   Agriculture or SRTGs, in order to provide assistance in foreign marketing
                   efforts. SRTGs are nonprofit organizations composed of State agricultural
                   promotion agencies that use Federal, State, and industry resources to promote
                   the export of agricultural products. For example, the State Departments of
                   Agriculture and SRTGs offer a wide range of programs and services to
                   potential novice, and even experienced exporters. This includes export
                   readiness seminars, trade leads and matchmaking services, market
                   information, and participation in trade shows or missions.




USDA/OIG-A/07601-1-Hy                                                                      Page 1
                                       In 2005, the U.S. Office of Management and Budget (OMB), using the
                                       Program Assessment Rating Tool, assessed the performance of FAS’ market
                                       development programs and rated them as being “moderately effective.” 7 In
                                       general, programs rated “moderately effective” have set ambitious goals and
                                       are well-managed but likely need to improve their efficiency in order to
                                       achieve better results. OMB concluded in its program assessment summary
                                       that the market development programs do not necessarily serve a clear need
                                       because many of the participants receiving funds are partly supported by
                                       large corporations that can afford to support their own export promotion
                                       efforts. OMB also concluded that the unique impact of the programs are
                                       unclear given there is no way to know whether the activities funded by these
                                       programs would occur without government funding. Finally, OMB found that
                                       the market development programs do help reduce trade barriers that have
                                       been erected against U.S. agricultural exports.

                                       FAS contracted with a consultant to conduct an independent, third-party
                                       review of the agency’s export market development programs, including MAP
                                       and the FMD program. The summary report 8 of the review was released in
                                       November 2006 and concluded that the market development partnership
                                       between government and industry had significant impacts on U.S. exports. In
                                       addition, it found that overall U.S. agricultural exports under the 2002 Farm
                                       Bill increased $25 for every market development dollar expended by
                                       government and industry. The findings also indicated positive impacts on
                                       cash receipts, farm income, farm asset values, and reduced government
                                       spending on domestic support payments.

                                       FAS participates in interagency committees regarding the promotion of
                                       agricultural trade. For example, the Trade Promotion Coordinating
                                       Committee (TPCC), consisting of 19 Federal agencies and chaired by the
                                       U.S. Department of Commerce, was established by Congress in 1992 to
                                       provide a unifying interagency framework in the coordination of U.S. export
                                       promotion activities and to develop a government-wide strategic plan. TPCC
                                       annually submits to Congress a National Export Strategy (NES), which
                                       reports member agencies’ activities and trade promotion budget authority,
                                       and establishes broad priorities.

                                       FAS also promotes U.S. agriculture through its work on agricultural trade
                                       policy. In this capacity, FAS coordinates with other USDA agencies and the
                                       Office of the U.S. Trade Representative (USTR) to carry out USDA’s
                                       responsibilities in international trade negotiations. FAS also works with other
                                       USDA agencies, particularly the Animal and Plant Health Inspection Service
                                       and the Food Safety and Inspection Service, to identify and reduce foreign
                                       trade barriers, constraints, and policies that hinder U.S. agricultural exports.

7
    OMB has completed assessments for 793 Federal programs with 15 percent rated “effective,” 29 percent rated “moderately effective,” 28 percent rated
    “adequate,” 4 percent rated “ineffective,” and 24 percent rated “results not demonstrated.”
8
    OIG did not assess or validate the information reported in this review due to time constraints.

USDA/OIG-A/07601-1-Hy                                                                                                                          Page 2
                                        FAS’ Reorganization

                                        Since FAS’ establishment in 1953, world agricultural trade has changed
                                        significantly. To address these changes and challenges, in 2004, FAS
                                        coordinated a top-to-bottom review of what the agency does, how effectively
                                        it functions, and what it could do better. This effort pointed out the need for a
                                        new strategic focus for FAS and a realignment of functions and personnel to
                                        increase the effectiveness of the agency.

                                        As a result, FAS reorganized its operations, which became effective in
                                        November 2006. The goals of the reorganization included more effectively
                                        linking the country expertise of FAS overseas offices with an increased focus
                                        in Washington, D.C., on key countries; providing program participants with
                                        better, streamlined, and transparent service; grouping staff members, who
                                        were scattered throughout the agency working on various aspects of trade
                                        barrier removal, into single work units with coherent missions; and
                                        strengthening FAS’ ability to support the dispute settlement efforts of USTR.

                                        Congressional Request

                                        In August 2006, the Office of Inspector General (OIG) received a request
                                        from three Members of Congress to conduct a brief review of FAS’ trade
                                        promotion operations to identify areas for internal improvement to achieve
                                        greater results. Similar requests were made of other OIGs, such as the U.S.
                                        Agency for International Development (USAID), to review their respective
                                        trade promotion operations. The Members of Congress requested that we
                                        work with the Senior Trade Advisor with the Committee on Small Business,
                                        U.S. House of Representatives, to establish the scope of the review. The
                                        Senior Trade Advisor requested that we provide the results of our review by
                                        November 2006. Accordingly, we limited the scope of our work due to the
                                        constraints on the amount of time to perform audit tests and certain
                                        information not being available for our review. FAS officials stated that there
                                        were program evaluations completed of markets other than the Philippines.
                                        However, FAS was unable to provide these program evaluations that would
                                        assess MAP effectiveness following the evaluation criteria specified in the
                                        regulations. 9

Objectives                              The overall objective of the audit was to determine the extent to which the
                                        USDA, through FAS’ market development programs, fosters expanded trade
                                        activities in the exporting of U.S. agricultural products.

                                        Specifically, we determined the extent to which: (1) FAS is actively
                                        outreaching to U.S. agricultural interests to identify trade constraints and
                                        foreign agricultural business opportunities and if FAS is disseminating this

9
    Title 7, C.F.R. § 1485.20 (c) (3)

USDA/OIG-A/07601-1-Hy                                                                                            Page 3
                   information to U.S. interested organizations; (2) FAS is summarizing and
                   presenting identified trade barriers to USTR and FAS’ private sector
                   participants and determining whether these bodies are securing relief from
                   these barriers; and, (3) efforts to promote the export of U.S. agricultural
                   products by USDA are being presented, with measurable benchmarks, in the
                   NES submitted to Congress and linked to USDA’s Performance and
                   Accountability Report (PAR).

                   We also examined FAS’ assessments of the effectiveness of MAP to promote
                   the export of U.S. agricultural products and identify and secure relief from
                   trade constraints. This evaluation was intended to be limited to one country to
                   complement and build upon the review by USAID’s Inspector General of
                   USAID’s trade capacity building activities. We chose to review the
                   Philippines because it received the most requests for MAP funds by
                   participants in 2006 of the five countries selected for review by USAID OIG.




USDA/OIG-A/07601-1-Hy                                                                      Page 4
Findings and Recommendations
Section 1. FAS Needs to Improve Tracking of Efforts to Expand Trade Activities and
Outreach to U.S. Exporters
Finding 1 .......................................................
                              FAS carries out its trade promotion programs in partnership with agricultural
                              trade associations, SRTGs, and State Departments of Agriculture. As of
                              November 2006, there were approximately 75 industry trade groups,
                              including 4 SRTGs, participating in FAS’ promotional programs. For
                              example, SRTGs have resources to educate both new and experienced U.S.
                              companies in exporting their products. These resources include online export
                              guides assisting U.S. companies with the basics of exporting, as well as
                              export help lines for companies to receive assistance unique to their products.
                              FAS provides funding to these groups through MAP to assist U.S. companies
                              in pursuing international sales and marketing efforts. For FY 2005, FAS
                              allocated $140 million for MAP and $200 million in FY 2006. FAS recently
                              reorganized its operations, in part, to realign functions and personnel to
                              increase its effectiveness. One of the goals of the reorganization, which
                              became effective in November 2006, was to provide program participants
                              with better service that is streamlined and transparent. As part of our review,
                              we identified additional areas for FAS to address as it takes action to
                              strengthen the agency’s trade promotion programs.

                          FAS does not formally track its efforts to expand trade activities in exporting
                          U.S. agricultural products or outreach to U.S. exporters. As a result, there is
                          no assurance that FAS’ outreach efforts are effective in expanding U.S.
                          agricultural exports. FAS does; however, use a variety of resources to
                          identify and disseminate information on trade constraints and business
                          opportunities to interested U.S. organizations. These resources include
                          information gathered by FAS staff in overseas field offices, announcements
                          by the FAS Public Affairs Office, and data posted on the FAS website and
                          Export.gov. In a strategic alliance, FAS also relies on SRTGs and other
                          industry trade groups to identify trade constraints, obtain information on
                          foreign agricultural business opportunities, and disseminate information on
                          constraints and opportunities to interested U.S. organizations. Interested
                          organizations are not always aware that the SRTGs are a primary source of
                          market related information. According to the companies we contacted, which
                          included small and medium-sized entities, they rely on their own sources, as
                          opposed to FAS, to identify trade constraints and obtain information on
                          foreign business opportunities.

                          Legislation and regulations require FAS to provide export information to
                          domestic producers, the agricultural trade, and the public; and to promote



USDA/OIG-A/07601-1-Hy                                                                                Page 5
                                         commercial markets abroad. 10 In addition, FAS is to disseminate, upon
                                         request, information on subjects connected with agriculture which has been
                                         acquired by USDA agencies that may be useful to the U.S. private sector in
                                         expanding foreign markets and investment opportunities. 11

                                         FAS fosters the expansion of exports of U.S. agricultural products by
                                         partnering with industry trade groups and U.S. agricultural officials in
                                         overseas posts to identify trade constraints and foreign agricultural business
                                         opportunities. However, companies that we interviewed explained that they
                                         primarily rely on other sources, rather than on FAS, to identify constraints
                                         and opportunities. For example, two industry trade groups we spoke with
                                         learned of trade constraints from exporters once they encountered them. In
                                         addition, we spoke with three small and medium-sized companies. One
                                         company exports branded and specialty food products, the second exports
                                         primarily rice products, and the third is a small food marketing distribution
                                         and exporting company. Two of the three companies did not obtain foreign
                                         business opportunities using FAS resources because the amount of
                                         information was overwhelming and not easily accessible in a centralized
                                         location. One of the companies also told us that his company could not rely
                                         on FAS to provide timely information on potential trade constraints such as
                                         tariffs, duties, and levies.

                                         Coordination with Industry Trade Groups to Collect and Disseminate
                                         Information on Business Opportunities and Trade Constraints

                                         FAS provides funding to SRTGs and the State Departments of Agriculture to
                                         assist U.S. companies in pursuing international sales and marketing efforts in
                                         identifying foreign business opportunities through trade shows and reverse
                                         trade missions. A reverse trade mission is a domestic trade show where
                                         foreign buyers are brought to the United States. According to FAS officials,
                                         they refer U.S. companies to SRTGs and the State Departments of
                                         Agriculture because the SRTGs and State Departments of Agriculture have
                                         the expertise to help companies export. In addition, FAS officials explained
                                         that this conserves scarce FAS resources. However, the companies we
                                         contacted were not always aware or informed that SRTGs and the State
                                         Departments of Agriculture are a source for this market-related information.

                                         SRTGs have resources to educate both new and experienced U.S. companies
                                         in exporting their products. The SRTG websites include online export guides
                                         assisting U.S. companies with the basics of exporting, as well as export
                                         helplines for companies to receive assistance unique to their products. In
                                         discussions with SRTGs, we determined that they also provide export
                                         readiness consultations, which are designed to offer both novice and veteran


10
     Title 7, U.S.C., § 1761 and Title 7, C.F.R., Subtitle A, §2.43 (a) (3)
11
     Title 7, C.F.R., Subtitle A, §2.43 (a) (38)

USDA/OIG-A/07601-1-Hy                                                                                           Page 6
                                      exporters the opportunity to receive individual assistance with their most
                                      challenging export issues.

                                      Industry trade groups learn of trade constraints through their offices located
                                      in countries to which they export. They also attend trade shows overseas,
                                      which provide a good source for identifying foreign business opportunities.
                                      Industry trade groups rely heavily on informal methods (e.g., e-mails,
                                      telephone calls) to provide information on constraints and opportunities to
                                      FAS.

                                      FAS also becomes aware of trade constraints and foreign agricultural
                                      business opportunities by receiving reports from U.S. agricultural officials in
                                      overseas posts (e.g., agricultural attachés). Through FAS’ Global Agricultural
                                      Information Network (GAIN), attachés issue market reports such as “Product
                                      Briefs” and “Exporter Guides.” 12 These reports contain up-to-date country
                                      market information, including factors affecting demand for U.S. products, as
                                      well as market promotion opportunities to help U.S. agricultural producers
                                      export to foreign markets.

                                      Coordination with USTR to Address Trade Barriers

                                      FAS also promotes the growth of U.S. agricultural products by maintaining a
                                      close working relationship with USTR for resolving trade barriers. According
                                      to FAS officials, FAS does not present trade barriers to USTR and then wait
                                      for USTR to secure relief from these barriers. Rather, FAS and USTR work
                                      jointly as partners to mitigate them. Also, FAS does not have a mechanism
                                      for summarizing trade barrier information. FAS officials across many
                                      organizational units maintain contact with USTR on a regular and recurring
                                      basis. According to FAS officials, this close working relationship has proven
                                      to be effective because it allows for the flexibility vital to resolving trade
                                      barriers, which can change rapidly.

                                      FAS abandoned prior efforts to centrally track such items as trade barriers
                                      because, according to FAS officials, the system was difficult to maintain and
                                      provided little benefit to the agency. However, FAS maintains an internal list
                                      of key outstanding sanitary and phytosanitary issues, which represent,
                                      according to an FAS official, approximately 75 to 90 percent of the trade
                                      barriers that can be addressed in any given year outside of formal trade
                                      negotiations.

                                      FAS’ Reorganization

                                      Under FAS’ reorganization, the new Office of Country and Regional Affairs
                                      will develop and disseminate overseas post reporting requirements in

12
     Not all reports issued by FAS’ agricultural attachés are accessible by the public. For example, Trade Policy Monitoring Reports, that provide an
     overview of a country’s trade policy measures affecting policy interests of the United States, are intended for USDA internal distribution only.

USDA/OIG-A/07601-1-Hy                                                                                                                      Page 7
                   consultation with other stakeholders. It will also review reports from, and
                   exchange information with, overseas posts to assure that information, advice,
                   and analysis reach appropriate audiences and that the information receives
                   proper attention. The new Office of Negotiations and Agreements will
                   function as the USDA’s lead on formal trade negotiations and trade
                   agreements and principal liaison with USTR. Finally, the new Office of
                   Trade Programs will serve as the agency point of contact for exporter
                   assistance and on all matters related to export program participation,
                   procedures, and policy. It will also organize and oversee outreach activities to
                   ensure that all persons, especially those who previously may not have
                   participated fully, know the availability of export programs and how to use
                   them.

                   On November 14, 2006, we met with FAS officials to discuss our tentative
                   audit conclusions. During this meeting, we suggested, as a potential
                   recommendation, that FAS implement a system to track the agency’s efforts
                   to expand exports of U.S. agricultural products. However, according to FAS
                   officials, it would be more practical for the agency to focus resources on
                   specific areas that would be useful to aid the agency in tracking its efforts to
                   expand exports.

                   FAS’ mechanisms for disseminating trade constraints and foreign business
                   opportunities to various U.S. agricultural interests, particularly small and
                   medium-sized companies, need improvement. The companies we contacted
                   rely on their own sources, rather than FAS, for information on constraints and
                   opportunities. As part of the reorganization, FAS needs to identify those areas
                   where tracking and analyzing specific data would be useful to the agency’s
                   efforts to expand exports of U.S. agricultural products. FAS should
                   coordinate this tracking and analysis with its Government Performance and
                   Results Act of 1993 (GPRA) reporting requirements because the agency does
                   not currently consolidate this information. In addition, FAS needs to ensure
                   that organizations interested in exporting agricultural products are aware that
                   FAS works, in part, through industry trade groups to outreach to
                   organizations and provide information on trade constraints and business
                   opportunities.

Recommendation 1
                   Identify the areas where tracking and analyzing specific data would be useful
                   to the agency’s efforts to expand exports of U.S. agricultural products. Based
                   on this documented analysis, FAS should implement a formal system to track
                   this information and coordinate this effort with the agency’s GPRA reporting
                   requirements.




USDA/OIG-A/07601-1-Hy                                                                       Page 8
                   Agency Response

                   In connection with its recent reorganization, FAS has begun to catalogue the
                   existing information and reporting systems that support the Agency’s mission
                   to expand U.S. agricultural exports. The review and assessment of these
                   existing systems will be an important first step in the analysis recommended
                   in the report. For example, the Committee on Agriculture tracking system is
                   used to track and disseminate information related to market constraints and
                   market access issues which have been raised by the United States in the
                   World Trade Organization’s Committee on Agriculture.

                   An initial review of mechanisms needed to support existing GPRA reporting
                   related to market access issues will be completed by March 15, 2007. FAS
                   already is in the process of designing an electronic tracking system to identify
                   and track the range of agricultural market access issues while also retooling
                   its coordinated SPS list. These will replace the previous mechanisms used to
                   support GPRA reporting. Further review of other data and reporting
                   mechanisms will be completed by the end of calendar year 2007, in
                   coordination with an agency-wide effort to review overseas-post reporting
                   requirements and implement country strategy plans.

                   OIG Position

                   We accept FAS’ management decision.

Recommendation 2
                   Review the FAS website and other outreach efforts to ensure that the
                   broadest appropriate audience is aware of the export marketing information
                   and assistance that is available from FAS and through industry trade groups,
                   including the SRTGs and the State Departments of Agriculture. Based on this
                   review, if the appropriate audience is not fully aware of the information and
                   assistance available to them, develop and implement a plan to increase this
                   awareness.

                   Agency Response

                   Over the years, FAS has conducted extensive outreach efforts to industry
                   trade groups and individual exporters. Due to limited resources and
                   increasing demand for export services, FAS has actively increased use of our
                   industry trade group partners, including the SRTGs, to help disseminate
                   information to individual exporters and as a source of critical market
                   constraint and market opportunity information.

                   FAS also maintains what is widely acknowledged to be the most
                   comprehensive system of agricultural data and information in the world.
                   FAS overseas offices submit a wide range of reports containing detailed

USDA/OIG-A/07601-1-Hy                                                                       Page 9
                   information on overseas markets, including export opportunities and
                   constraints. All of these reports and other critical information are easily
                   accessed through the FAS website.

                   In FY 2007, FAS is scheduled to review its website and other outreach efforts
                   and, if the review finds that the appropriate audience is not fully aware of the
                   agricultural product export information and assistance available to them, the
                   agency will develop and implement a plan to increase awareness contingent
                   upon the resources available to do so.

                   OIG Position

                   We do not accept FAS’ management decision. Although the agency agreed to
                   review its website and other outreach efforts with the intent of possibly
                   strengthening its dissemination of agricultural product export information and
                   assistance to all users, we need more specific information before we can
                   accept management decision. Specifically, we need the results of FAS’
                   review and its determination, including timeframes, on how the agency will
                   address the results of the review, if appropriate.




USDA/OIG-A/07601-1-Hy                                                                     Page 10
Section 2. Linkage Between USDA Accomplishments and the National Export Strategy
Needed


Finding 2…………………………………………………………………
               The 2006 NES submitted to Congress did not present USDA’s annual
               accomplishments for promoting the export of U.S. agricultural products or
               link information to USDA’s PAR. This occurred because TPCC, which is
               responsible for publishing the NES, did not require FAS to submit this type
               of information. As a result, USDA’s performance goals and measures
               regarding exports could not be linked with the goals of TPCC.

                                     According to an FAS official, TPCC decides the outline of what will be
                                     included in the NES. TPCC also makes the decision on what information
                                     submitted by FAS is included in the final version of the NES. TPCC did not
                                     require FAS to submit USDA’s annual accomplishments that could be linked
                                     to USDA’s PAR. FAS needs to work with TPCC to implement standard
                                     reporting requirements to provide a linkage between USDA’s annual
                                     accomplishments and the NES submitted to Congress.

                                     TPCC is mandated to develop a government-wide strategic plan for carrying
                                     out Federal export promotion and export financing programs. 13 GPRA
                                     requires agencies to develop performance measures and assess performance.

                                     In a 2002 report, 14 the Government Accountability Office (GAO)
                                     recommended to TPCC that its NES consistently identify specific goals
                                     established by the agencies within the strategies’ broad priorities; identify
                                     allocation of agencies’ resources in support of their specific goals; and
                                     analyze the progress made in addressing the recommendations in TPCC’s
                                     prior annual strategies. In its 2006 testimony before the Committee on Small
                                     Business, 15 GAO reported there was no record of TPCC submitting an action
                                     plan to OMB in response to this recommendation.

                                     Under FAS’ reorganization, two separate offices will be responsible for
                                     coordinating with TPCC and reporting on FAS’ accomplishments. The new
                                     Office of Trade Programs will serve as the FAS liaison with TPCC with
                                     respect to U.S. Government policy coordination of export promotion and
                                     export financing. The new Office of Administrative Operations will
                                     coordinate the agency strategic planning process through implementation of
                                     GPRA.




13
     15 U.S.C. § 4727 (a)(2)
14
     GAO, Export Promotion: Mixed Progress in Achieving a Government-wide Strategy, GAO-02-850 (September 4, 2002).
15
     GAO, Export Promotion: Trade Promotion Coordinating Committee’s Role Remains Limited, GAO-06-660T (April 26, 2006).

USDA/OIG-A/07601-1-Hy                                                                                                      Page 11
Recommendation 3
                   Work with TPCC to implement standard reporting requirements that link
                   information reported in the NES to USDA’s PAR for annual
                   accomplishments in promoting the export of U.S. agricultural products.

                   Agency Response

                   FAS agrees with the desirability of implementing standard reporting
                   requirements that link information reported in the NES to USDA’s PAR for
                   annual accomplishments in promoting the export of U.S. agricultural
                   products, and in FY 2007 will continue to work with TPCC to establish them.

                   OIG Position

                   We accept FAS’ management decision.




USDA/OIG-A/07601-1-Hy                                                                 Page 12
Section 3. Program Evaluations to Assess MAP Effectiveness in the Philippines Not
Conducted by Participants or FAS


Finding 3…………………………………………………
               FAS provided over $1 million in MAP funding to all participants operating in
               the Philippines in FY 2005. Participants operating in the Philippines also
               requested more than $1.2 million in MAP funding in FY 2006. We limited
               our review of MAP to the three participants that were approved to use the
               most MAP funds in the Philippines in FY 2005. These three participants
               received 78 percent of MAP funds for the Philippines in FY 2005 and
               requested 51 percent of the funds in FY 2006. According to FAS regulations,
               a MAP participant shall conduct periodic evaluations of its program and
               activities to assess the effectiveness of the program. 16 FAS officials
               explained that these participants contracted for evaluations in markets other
               than the Philippines on a regular basis. However, FAS was unable to provide
               these program evaluations that would assess MAP effectiveness following the
               criteria specified in the regulations.

                                      In FY 2005, MAP funding allocated to participants operating in the
                                      Philippines represented only a small sliver of overall MAP funds.17 However,
                                      FAS considers the Philippines as a key market in Southeast Asia for U.S.
                                      agricultural exports, with sales reaching $825 million in 2005. Top U.S.
                                      exports to the Philippines in 2005 were wheat ($270 million), soybean and
                                      soybean meal ($168 million), and dairy products ($63 million), with total
                                      U.S. agricultural exports rising 16 percent compared to 2004.

                                      According to FAS regulations, a program evaluation shall contain, among
                                      other things: a concise statement of the constraint(s) and the goals specified
                                      in the activity plan; a description of the evaluation methodology; a
                                      description of additional export sales achieved, including the ratio of
                                      additional export sales in relation to MAP funding received; and a summary
                                      of the findings, including an analysis of the strengths and weaknesses of the
                                      program. 18 According to FAS officials, participants may use third-party
                                      independent evaluations to fulfill the reporting requirements set forth in the
                                      regulations. However, we found that participants do not conduct program
                                      evaluations on a set schedule. This occurred because FAS does not have a
                                      mechanism that ensures comprehensive, periodic program evaluations are
                                      conducted by participants to assess MAP effectiveness. In addition, FAS
                                      officials stated that third-party evaluations would be prohibitively expensive
                                      for participants that received limited MAP funds.


16
     Title 7, C.F.R., § 1485.20 (c)(1)(ii)(iii)
17
     MAP allocations totaled $140,000,000 in FY 2005.
18
     Title 7, C.F.R., § 1485.20 (c) (3)

USDA/OIG-A/07601-1-Hy                                                                                      Page 13
                   According to FAS officials, they use the participant’s application, country
                   progress reports, attaché reviews, and discussions with FAS marketing
                   specialists to assess participant performance. They acknowledged that these
                   assessments do not necessarily take the place of independent evaluations.

                   We limited our review of MAP in order to better respond to the request from
                   the Members of Congress. We chose the Philippines to complement and build
                   upon the review being performed by the USAID Inspector General to assess
                   USAID’s trade capacity building activities. We reviewed the following three
                   participants: (1) the California Tree Fruit Agreement, (2) the California Table
                   Grapes Commission, and (3) the U.S. Wheat Associates. Together these
                   participants accounted for nearly 78 percent of the MAP funding for the
                   Philippines in FY 2005. (See Table 1.) These participants expressed
                   satisfaction with the program and described it as effective in promoting their
                   products in the Philippines.

                           Table 1. 2005 Country Summary Report – Philippines MAP Funding

                    Participant                        Requested        Approved            Percentage of
                                                                                            Approved
                                                                                            Funds
                    American Soybean Association               30,000           30,000              3.0%
                    California Agricultural Export             35,000           35,000              3.5%
                    Council
                    California Table Grape                    138,900          248,505            24.8%
                    Commission
                    California Tree Fruit Agreement            55,000           70,000             7.0%
                    National Dry Bean Council                  50,000           25,000             2.5%
                    Raisin Administrative Committee           115,000           65,000             6.5%
                    U.S. Wheat Associates                     343,700          461,770            46.0%
                    USA Dry Pea and Lentil Council             85,000           48,000             4.8%
                    USA Poultry and Egg Export                 40,000           20,000             2.0%
                    Council
                    Washington Apple Commission                84,000                0              0.0%
                         TOTAL FOR PHILIPPINES               $976,600       $1,003,275

                   However, only one of the three participants selected for our review
                   contracted with a third party to conduct a review. Furthermore, although this
                   review was specific to the Philippines, it did not measure the effectiveness of
                   MAP. The review considered a range of matters including quality
                   management systems, product usage, quality and specifications, research and
                   development and training, trends in the product market, and best prospects
                   for the product. According to FAS officials, these three participants
                   contracted for independent evaluations in other markets but acknowledged
                   these evaluations were not specific to MAP. FAS officials also could not
                   provide these program evaluations for our review.




USDA/OIG-A/07601-1-Hy                                                                             Page 14
                                         In November 2006, a consultant contracted by FAS released a summary
                                         report 19 of their cost-benefit analysis of the agency’s export market
                                         development programs, including MAP and FMD. The consultant concluded
                                         that the market development partnership between government and industry
                                         had significant impacts on U.S. exports. According to the summary report,
                                         U.S. agricultural exports under the 2002 Farm Bill increased $25 for every
                                         market development dollar expended by government and industry.

                                         FAS needs to implement methodologies to ensure participants conduct
                                         periodic program evaluations to assess MAP effectiveness and to assist those
                                         participants receiving limited MAP funding. Recognizing this weakness, FAS
                                         officials explained that they intend to set up a central fund that would be used
                                         to provide third-party reviews for participants that received limited MAP
                                         funding. FAS officials stated that their expectation is to have the central fund
                                         operating in FY 2007.

Recommendation 4
                                         Develop and implement a mechanism that ensures periodic program
                                         evaluations are conducted by participants to effectively measure their
                                         accomplishments with MAP funding.

                                         Agency Response

                                         In the 2005 PART review of FAS market development programs, OMB gave
                                         FAS very high marks for performance measurement, evaluations, and
                                         strategic planning; program management; and program results. OIG also
                                         noted the positive conclusions from the recent Cost-Benefit study of these
                                         market development programs. FAS maintains that greater weight should
                                         have been given to these two reports, as these were program wide
                                         assessments that provide a more accurate view of overall program
                                         effectiveness.

                                         The regulations state that “a program evaluation is a review of the MAP
                                         participant’s entire program or any appropriate portion of the program to
                                         determine the effectiveness of the participant’s strategy in meeting specified
                                         goals.” FAS already has procedures in place which ensure that MAP
                                         participants meet this and all other obligations as stipulated in the regulations
                                         and, in FY 2007, will study the need for any additional mechanisms to further
                                         ensure that existing MAP regulations requiring periodic program evaluations
                                         are being met.

                                         OIG Position

                                         We do not accept FAS’ management decision. FAS’ response states that the
                                         agency already has procedures in place that ensures periodic program

19
     OIG did not assess or validate the information reported in this review due to time constraints.

USDA/OIG-A/07601-1-Hy                                                                                            Page 15
                   evaluations are conducted by MAP participants. However, during our review
                   of the three participants that were approved to use the most MAP funds in the
                   Philippines in FY 2005, we found these participants did not conduct program
                   evaluations on a set schedule.

                   We acknowledged that MAP participants are not required to conduct
                   evaluations for every individual market in a given year. We also appreciated
                   the examples of evaluations FAS officials provided for activities of MAP
                   participants in several countries other than the Philippines. However, when
                   providing these evaluations, an FAS official acknowledged that they were
                   “consumer or market surveys” and that “these surveys do not strictly follow
                   the evaluation criteria laid out in the MAP and FMD regulations.”

                   To reach management decision, FAS needs to develop and implement a
                   mechanism that ensures periodic program evaluations are conducted by
                   participants to effectively measure their accomplishments with MAP funding
                   and to identify the timeframe for completing this action.

Recommendation 5
                   Establish a mechanism to assist participants receiving limited MAP funds to
                   conduct regular program evaluations.

                   Agency Response

                   All MAP participants, regardless of the amount of program funding they
                   receive, are obligated to conduct regular program evaluations. However, the
                   regulations also make plain that participants may, but are not required to,
                   contract with an independent evaluator to conduct third party evaluations.
                   Previously, FAS noted that contracting for independent evaluations and/or
                   evaluating the few activities conducted in small markets (such as the
                   Philippines) can be cost prohibitive for smaller MAP participants. While the
                   competitive UES review process and self-assessments by MAP participants
                   in the form of Country Progress Reports help ensure that market development
                   funds are being used efficiently and effectively, FAS acknowledges that
                   independent evaluations can provide additional benefits and will consider
                   ways to provide funding to smaller participants for third-party evaluations.

                   OIG Position

                   We do not accept FAS’ management decision. To reach management
                   decision, FAS needs to provide an action plan, with a proposed completion
                   date, for establishing at least one mechanism to assist participants receiving
                   limited MAP funds to conduct regular program evaluations.




USDA/OIG-A/07601-1-Hy                                                                   Page 16
Scope and Methodology
                   Our review of USDA’s trade promotion operations was initiated in response
                   to a request from three Members of Congress. The Members of Congress
                   requested that we work with the Senior Trade Advisor with the Committee on
                   Small Business to establish the scope of the review. The Senior Trade
                   Advisor requested that we provide the results of our review by
                   November 2006. Accordingly, we limited the scope of our work due to the
                   constraints on the amount of time to perform audit tests and certain
                   information not being available for our review. FAS did not provide
                   documentation of evaluations performed to assess the use of MAP funding
                   for the participants we reviewed. We conducted interim briefings with both
                   FAS officials and the Senior Trade Advisor to provide them timely
                   information for their deliberations and use.

                   At FAS Headquarters, we interviewed FAS program officials and obtained
                   and reviewed relevant documentation. We also interviewed by teleconference
                   FAS’ Agricultural Counselor and Agricultural Attaché located in the
                   Philippines. We interviewed these officials to determine the extent of FAS’
                   efforts to outreach to external groups to identify trade impediments and
                   foreign agricultural business opportunities. We also determined whether FAS
                   was disseminating this information to U.S. interested organizations. In
                   addition, we interviewed FAS officials to learn how FAS identifies,
                   summarizes, and presents identified trade constraints to the USTR. Finally,
                   we interviewed an FAS official to determine whether USDA’s annual
                   accomplishments were reported in the NES and if not, the reasons for their
                   omission.

                   We spoke with a limited number of industry trade groups and three small to
                   medium-sized companies to determine how they interact with FAS and what
                   efforts FAS makes to assist them in exporting U.S. agricultural products. We
                   also obtained and reviewed documents received from these groups. We
                   judgmentally selected 3 SRTGs to interview: the Food Export Association of
                   the Midwest, the Food Export Association of the Northeast USA, and the
                   Southern U.S. Trade Association. Finally, we interviewed officials from the
                   National Association of State Departments of Agriculture and nine trade
                   associations represented by the U.S. Agricultural Export Development
                   Council based on input from FAS officials.

                   We interviewed representatives from 3 small to medium-sized companies:
                   Groceries USA, Rice Economics, and SB Global to solicit their input on the
                   extent to which FAS actively outreaches to them to identify trade leads and
                   assist them in mitigating trade constraints. These companies were contacted
                   based on input from one of the SRTGs.



USDA/OIG-A/07601-1-Hy                                                                  Page 17
                   In order to better serve the request from the Members of Congress, we
                   narrowed our review to complement and build upon the review by USAID’s
                   Inspector General of USAID’s trade capacity building activities. USAID OIG
                   selected the following countries in its review: El Salvador, Honduras,
                   Nicaragua, the Philippines, and South Africa. The Philippines received the
                   most requests for MAP funding by participants in 2006 of any of the five
                   countries and was selected as the country for our review on that basis. We
                   also judgmentally selected a sample of participants to solicit their comments
                   on the effectiveness of FAS’ efforts, through its MAP, to promote the export
                   of products to the Philippines. These three participants (the U.S. Wheat
                   Associates, the California Table Grape Commission, and the California Tree
                   Fruit Agreement) were selected because they accounted for nearly 78 percent
                   of the total funding for the Philippines for 2005.

                   FAS allocated $140 million for MAP in FY 2005 and $200 million in
                   FY 2006. FAS provided over $1 million in MAP funding to all participants
                   operating in the Philippines in FY 2005. Participants requested more than
                   $1.2 million for FY 2006. The three participants we reviewed received over
                   $780,000 in MAP funding during FY 2005 and requested more than
                   $609,000 in FY 2006 for use in the Philippines.

                   The fieldwork was performed from August 2006 to November 2006 and was
                   conducted in Washington, D.C.

                   Our audit was conducted in accordance with Generally Accepted
                   Government Auditing Standards.




USDA/OIG-A/07601-1-Hy                                                                   Page 18
Exhibit A – Agency Response
                              Exhibit A page 1 of 5
Exhibit A page 2 of 5
Exhibit A page 3 of 5
Exhibit A page 4 of 5
Exhibit A page 5 of 5
